July 2, 2010


Memorandum for:      The Federal Co- Chair
                     ARC Executive Director


Subject:             OIG Report 10-06
                     Inspection Report on Grant Management Compliance


Attached is our report concerning grant management compliance.

The report contains two recommendations. The first recommendation concerns compliance with
a provision of ARC’s Code dealing with construction projects and the other concerns the
appropriate naming of administrative agencies.

We anticipate being able to close these recommendations once action is taken at the August 2010
Commission meeting.




Clifford Jennings
Inspector General

Attachment
 

 
                            Office of Inspector General  
 

                         Grant Management Compliance 
 

 

 




                                             July 2, 2010  
 

 

 

 

 

 

                                       Inspection Report 10‐06  

        

 

 
                                                  Office of Inspector General
    Why We Did This Inspection                 
    The results of grantee audits             What We Found
    demonstrated prior weaknesses in          Our inspection presents two findings regarding ARC’s
    ARC’s oversight of grantee             
                                              oversight of construction grants. Specifically, we found
    activities and enforcement of             three grants each raising at least one of the following
    grant requirements.  Accordingly,         concerns:
    we wanted to know what specific 
    ARC oversight policies and                A. ARC Code’s Construction Provisions
    processes were in use. We also            ARC recognizes that it does not have personnel with
    wanted to understand the full             adequate skill sets to provide administrative oversight for
    range of grant requirements that          most types of construction grants. ARC Code Section 8.1
    needed to be monitored and to             appears to address this shortcoming by limiting the
    assess grantee oversight activities.      administration of certain construction grants to federal
    For this review, our scope was            agencies, and by excluding ARC from their
    limited to 5 grants dealing with          administration. However, a review of a sample of grants
    compliance concerns.                      found 10% involving significant construction that were
    This inspection report presents           either administered by ARC or a state agency (a non-
    the second part of our results on         federal agency) in seeming conflict with the ARC Code
    the topic of grants management.           construction limitation provision.
    The findings in this report were 
    separated out from the first              In discussions with the ARC General Counsel (GC), we
    report, report 09‐03, because of          were advised that the limitations on construction grants in
    time considerations related to the        the Code are intended to prevent ARC from directly
    securing of a general counsel,            managing construction site daily activities. According to
    whose input was needed for 
                                              the GC, this provision was never intended to prevent non-
    proper evaluation of these 
                                              federal agencies or ARC from administering construction
                                              grants. After further discussions with our office, the GC
    findings. 
                                              agreed that there appear to be differences in the way this
                                              code section was understood and implemented versus the
    Summary of Recommendations                way an outsider might read and understand it.
                                              Accordingly, we recommend that management update this
    Our office makes the following            section of the Code to reflect the current business
    recommendations.                          practices of ARC with respect to the administration of
    1) ARC should immediately comply          construction grants. Code changes and other
    with the ARC Code's construction          improvements to policies demonstrate, by example,
    limitations and if appropriate seek       ARC’s commitment to the appropriateness and
    to have the Code revised.                 transparency of its activities.

    2) We recommend that ARC                  B. Recognition of Administrative Responsibilities
    develop a policy to define what 
    constitutes administrative                We also found problems with the naming of administrative
    oversight responsibility, so that         agencies in the Federal Co-chair’s grant approval
    administrative agencies are               memoranda and in ARC’s grant management system. We
    properly listed in ARC approvals 
                                              believe the division of responsibility for managing
    and in ARC’s grant management 
                                              construction grant activities among different agencies
                                              contributed to the naming inconsistencies between the
    system.  
                                              approval memoranda and ARC’s grant management
                                              system. Also, the agencies named were not always
                                              reflective of the underlying grant documentation. For
                                              instance, the approval memorandum would list a federal
                                              agency (not ARC) as the administrator when, in fact, ARC
                                              or the state agency was administering the grant.
                                              Ultimately, it is important for only one agency to be
                                              accountable for oversight of grant activities.
 




       



                                               Table of Contents



Background .........................................................................................................   1

Results of Inspection ..........................................................................................       1

Recommendations ………..................................................................................                  3

Objectives, Scope & Methodology …............................................................... Appendix A

Management Response to Inspection Report ................................................. Appendix B
 




                                                                        i
 
 


Background
ARC is an entity created by Congress, a partnership of the federal government and 13 state
governments charged with improving the lives of Appalachian residents and improving the
economic vitality of the Appalachian region, as defined in the Appalachian Regional
Development Act of 1965, as amended. Primarily, ARC achieves these goals by making grants to
state and local government entities that provide needed programs. Aside from the legislation
governing ARC’s activities, ARC has adopted a code which was developed to address ARC’s
unique needs and is the “definitive statement of current ARC policy.”1 The Code is an important
regulatory tool, providing the framework for a significant part of ARC’s operations, and reflects
the operating ideologies of both the state and federal components of ARC.2

Results of Inspection
We found that ARC was issuing construction grants in seeming conflict with the ARC Code’s
restrictions on the administration of construction grants by ARC and non-federal agencies.3
ARC Code section 8.1 (B)(1) states:


              Construction Grants Ineligible. No projects under the Area Development Program
              involving significant construction, except housing projects, may be administered by the
              Commission. A basic federal agency must be responsible for the administration…


In discussions with ARC’s General Counsel (GC), he informed us that the provision limiting the
administration of construction grants to federal agencies was only intended to prevent the direct
administration of construction site work by ARC.4 The GC went on to state that no one
associated with the program has any misunderstanding about what is permitted under this Code
section. Our appraisal of this Code section was that it prohibits non-federal agencies (including
state agencies) and ARC from having any administrative responsibilities for most types of
construction grants. After further discussions with our office, the GC agreed that there appear to
be differences in the way this Code section was understood and implemented versus the way we
interpreted it or how a non affiliated party might understand it.
Another concern was related to ARC’s difficulty in defining who has ultimate responsibility for
construction grant oversight. We believe the division of responsibilities among different agencies
contributed to the naming difficulties/inconsistencies between the approval memoranda and
ARC’s grant management system. Also, the agencies named were not always reflective of the
underlying grant documentation. For instance, the approval memorandum would list a federal



                                                            
1
     The ARC Code, Section 1.1, Revised 2008.
2
    Section 1.1 of the ARC Code states, “The Code reflects Commission decisions adopted through resolutions and motions.”
and “…no decision involving any modification or revision in the Code can be made without a quorum of governors present.”
3
      Except that ARC is permitted to administer construction for housing projects.
4
  The ARC General Counsel explained in an opinion to our office that ARC did not employ personnel with the necessary skill sets to
oversee construction grants, and that it had met the intended purpose of the Code’s provisions by using state agencies. An excerpt from
ARC's explanation states, “The extension of the definition of federal agency administration … to the state agencies in the projects you cite
is consistent with the purpose of that provision.”
 

agency (not ARC) as the administrator when, in fact, ARC or the state agency was administering
the grant.
Confirming what we were told by the GC, that a significant number of grants were issued for
construction, we found that 10% of our sample of 30 grants (3 of 30) were issued with ARC or
state agency administration, which was contrary to our interpretation of ARC’s construction code
provision, but consistent with the GC’s statements to our office. All of the construction grants
reviewed also had issues in the naming of the administrative agency. The next few paragraphs
describe three construction grants which were administered by state agencies or ARC.


       1. A County Water System Grant
A grant was provided to a county government for construction of a water system supplying homes,
businesses and a school. ARC construction funding was provided in conjunction with funding from
the U.S. Environmental Protection Agency (EPA). ARC’s approval memo lists the U.S. EPA as the
Basic Agency (a federal agency charged with grant administration). However, neither the U.S. EPA
nor any other federal agency is administering the grant. The grant contract states that the state EPA
is responsible for construction project review and oversight5 and mentions a Memorandum of
Understanding (MOU) made between ARC and the federal and state EPA. Under the MOU, the
state EPA is responsible for following specific procedures for contract administration. However,
ARC is listed as the administrative agency in ARC’s grant management system. It appears that the
state EPA and ARC had administrative responsibilities for this grant.


       2. A Grant for Infrastructure
Another grant was provided a governor’s office for infrastructure rebuilding following a flood. The
funds were primarily used to repair roads, a retaining wall, and an embankment. This grant was not
administered by a federal agency and it is unclear how ARC intended to manage the grant—ARC’s
approval memo does not list a grant administrator, the contract documents provide for the grant’s
joint administration by two state offices, and ARC’s grant management system lists ARC as the
administrative agency.


       3. A Grant Made to Improve a City and Town’s Water Systems
A third grant for construction, administered by ARC, was made to a state administrative agency.
The purposes of the grant were to improve the water storage capacity and a water distribution
system for a city and town. The state agency was the grantee and provided construction project
management (per the grant agreement). A letter from the U.S. EPA to ARC noted the existence of
an operating agreement between the state agency and themselves. The operating agreement
established operating procedures and required an annual compliance review for other matters, but
did not provide for grant administration. However, ARC’s approval memo listed the EPA as the
Basic Agency.6 As above, this grant is reported by ARC’s grant management system as being self-
administered.

                                                            
5
    The state EPA, under an agreement with the US EPA and ARC, is supposed to follow a contract provision for the proper administration
of the grant.
6
   The memo also conflicts with itself as later in the document it states that the grant will be administered by the state with
oversight by the EPA.

                                                                      2

 
 



Because the Code reflects the operating direction that the Commission, as a whole, has established,
we believe it is important that ARC personnel adhere to the Code’s provisions. As we discussed,
the Code provision relating to construction grants appears to limit its administration to federal
agencies (and it excludes ARC administration). Accordingly, our recommendation is that the Code
be implemented as written, and if this implementation process is not appropriate for operations,
then operating management should seek to have it changed. This will help to improve the
appropriateness and transparency of ARC’s operations. In addition, it is important to know who
has ultimate oversight responsibility for ARC’s construction projects. ARC needs to develop
procedures to ensure the proper naming of administrative agencies.




Recommendations
We recommend that ARC’s Executive Director:


1)     a) Immediately implement procedures to comply with the ARC Code’s construction grant
provisions, and discontinue making any future construction grants where ARC administers or a
non federal agency administers the grant, and
       b) at management’s option, modify the Code to allow for ARC or non federal agencies (or
other entities) to administer construction grants.


2)     Develop a policy to define what constitutes administrative oversight responsibility, so that
administrative agencies are properly listed in ARC approvals and in ARC’s grant management
system.



Management Response
Management agreed with our assessment of ARC Code Section 8.1 (B)(1), that the Code’s language
should be modified to reflect ARC’s practice of assigning qualified agencies, both federal and state,
responsibility for construction grants. Further, management stated that ARC has never been staffed to
provide construction site management and recognized that the Code is appropriate in prohibiting ARC
from directly administering grants. In conclusion, management will propose to the Commission in
August (just over a month from now) an amendment to the Code which will align the Code with
management’s assignment of administrative responsibilities for construction projects, but in the
meantime they will continue their current method of operation.
In concurrence with our second recommendation, management agreed to rectify the naming of
construction grant administrative agencies in its approvals and in its grant management system.
The entire text of management’s response in provided Appendix B.




                                                    3

 
 



Office of Inspector General Comments
Management’s response addresses our concerns and we will consider the recommendations
resolved once the promised actions take place later in the year. However, if the Commission
chooses not to pass an amendment allowing for both federal and state agency administration of
construction grants during its August 2010 meeting, the part of the recommendation dealing with
an immediate moratorium on the issuance of construction grants would come into play. We do not
expect that this will be the case.




                                                  4

 
     




    Appendix A


    Objectives, Scope, and Methodology
    The objectives of this inspection were to identify ARC oversight policies and processes in use, to
    understand the grant requirements and to assess and evaluate grantee oversight. In particular, we
    identified grant requirements and practices in use by ARC's grant managers to provide oversight of
    grantee activities and compared that to the universe of applicable grant requirements. Then, we
    assessed compliance with the requirements and evaluated the effectiveness of grant oversight.
    Also, in conjunction with this inspection; we reviewed ARC grant files, discussed concerns with
    ARC grant personnel and researched issues of concern.
    The scope of this inspection was limited to the five grant findings which were developed during
    our earlier inspection work and were unresolved. With respect to those findings, we did the
    following:
        •    obtained a written explanation and/or held discussions with ARC’s General Counsel (OGC)
             to acquire information regarding certain items related to ARC’s grant management
             activities and guidance;
        •    drafted our assessments and evaluations to provide this report while taking into account
             information and opinions received from the OGC and the OIG Counsels.
    Our inspection was conducted at ARC’s offices in Washington, DC from April 2008 to April 2010
    in accordance with the Quality Standards for Inspections adopted by the Council of Inspectors
    General on Integrity and Efficiency.
     
 
 
 
 
 
 
 
 
 
 
     
     
    Note:  This inspection report presents the second part of our results on the topic of grants management. The findings in this 
    report were separated out from the first report, report 09‐03, because of time considerations related to the securing of a 
    general counsel, whose input was needed for proper evaluation of these findings. 


                                                                     5

     
 

 

 

 

 

 

 

          


    Appendix B 
